No.
IN THE
SUPREME COURT OF THE UNITED SATES
In re Hernandez Cuellar Jose Victor - PETITIONER

Vs.
United States of America - RESPONDENT

PROOF

OF

SERVICE

I, hemandez Cuellar Jose Victor, do swear or declare that on this date,

SEP XO

, 2021, as required by Supreme Court Rule 29 I have served

the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
A WRIT OF HABEAS CORPUS on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
The addresses of those served are as follows:

(i).

Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N.W.
Room 5614
Washington, D.C. 20530-0001

(2).

Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543

I declare under, penalty of perjury that the foregoing is true and correct.
Executed on

SEP XO

, 2021

Certified Mail:

(l). 7-Qi3.0 3-45O 0000 V633 38<W

Ulil

m

(2). 1018 Ift30 0000 5060 53IV

(t

Hernandez Ct^ell^r Jose Victor
21

